LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

April 15, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-1294:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

SIMON CAMPBELL, ET
ASSOCIATION, ET AL.

AL. V.

PENNSYLVANIA SCHOOL BOARDS

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Institute for
Free Speech on April 15, 2021, I caused service to be made pursuant to Rule 29 and the
Temporary Order of April 15, 2020 on the following counsel for the Petitioners and
Respondents:
PETITIONERS:
Jacob Charles Cohn
Gordon & Rees Scully
Mansukhani, LLP
Three Logan Square
1717 Arch St., Ste 610
Philadelphia, PA 19103
215-717-4004
jcohn@grsm.com

RESPONDENTS:
Michael Levin
David W. Brown
Levin Legal Group, P.C.
1301 Masons Mill Business Park
1800 Byberry Road
Huntington Valley, PA 19006
215-938-6378
mlevin@levinlegalgroup.com
dbrown@levinlegalgroup.com

This service was effected by depositing one copy of the Brief of Amicus Curiae
Institute for Free Speech in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of April 2021.

